<html>
<title> - [H.A.S.C. No. 114-134] NAVAL DOMINANCE IN UNDERSEA WARFARE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 114-134]

                  NAVAL DOMINANCE IN UNDERSEA WARFARE

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 14, 2016


 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
 
 
 
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-821                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
 
 
 
 
 
 
 
 
 


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     1
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Jabaley, RADM Michael E., USN, Program Executive Officer for 
  Submarines.....................................................     5
Richard, RADM Charles A., USN, Director, Undersea Warfare 
  Division (N97).................................................     2

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    31
    Forbes, Hon. J. Randy........................................    29
    Richard, RADM Charles A., joint with RADM Michael E. Jabaley.    34

Documents Submitted for the Record:

    FY16 30-Year Shipbuilding Plan chart.........................    53
    FY17 30-Year Shipbuilding Plan (Draft) chart.................    54

Witness Responses to Questions Asked During the Hearing:

    Mr. Hunter...................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    61
    Mr. Langevin.................................................    61
    Mr. Moulton..................................................    63
    Mrs. Walorski................................................    61

















                  NAVAL DOMINANCE IN UNDERSEA WARFARE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                           Washington, DC, Thursday, July 14, 2016.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. We want to thank our witnesses for being with 
us today. And as you probably know, they have concluded votes 
so we probably will have a limited number of members. Limited 
meaning probably Mr. Courtney and I. But these hearings are 
important not for the members that are here but for the 
transcript that is made. So this is an important hearing for 
us.
    And we certainly appreciate both of you gentlemen, one, 
your service to our country, but also your willingness to be 
here with us today.
    I am going to be very brief and submit my opening remarks 
for the record. But I just want to point out that we have with 
us today two very distinguished gentlemen: Rear Admiral Charles 
A. Richard of the United States Navy. He is the Director of 
Undersea Warfare Division (N97). And also, Admiral, we 
understand that you have been nominated for your third star and 
we look forward to your service that you will be doing 
continuing for the United States Navy.
    And also Rear Admiral Michael E. Jabaley, who is the 
Program Executive Officer for Submarines. And, Admiral, we 
thank you for your service and for being here.
    And with that, I am going to yield to my good friend, the 
ranking member, Mr. Courtney.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Forbes. And again, thank you 
for your great work on this subcommittee.
    Again, in the interest of moving along, I am going to also 
ask that my written remarks be entered for the record.
    You know, just to briefly summarize, both of these 
witnesses are, you know, perfect voices in terms of the 
questions that I think the subcommittee wants to explore this 
afternoon. As we had a discussion today at the conference 
committee, this subcommittee, I think, has a pretty strong 
record in terms of being able to sort of move the process along 
for the undersea fleet over the last 6 or 7 years, with the 
plus-up to the Virginia program, helping the Virginia Payload 
Module really also get off the ground, as well as promoting the 
National Sea-Based Deterrence Fund, which, you know, Randy and 
I are convinced is really not just a way of sort of avoiding, 
you know, budget problems for shipbuilding, but also giving 
tools to the navies and the shipbuilders to maximize 
efficiencies and, again, bring every cent of resource to, 
again, a priority that I think Admiral Richardson called 
fundamental or foundational to our national defense.
    So again, we look forward to your testimony, as Randy said. 
I think we will make a good record.
    There are a couple of members that did say they still 
intended to pop in. So again, welcome and thank you for your 
great service.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 31.]
    Mr. Forbes. And I want to compliment Mr. Courtney for his 
work on this hearing. This was something that was important to 
him and helped direct the tenor of it and where we are going. 
So, Joe, thank you for your work in this entire area.
    And with that, Admiral Richard, we are going to look to 
you, and we welcome any comments that you might make. Both of 
you, we will submit your written statements for the record.
    And with that, Admiral, the floor is yours.

 STATEMENT OF RADM CHARLES A. RICHARD, USN, DIRECTOR, UNDERSEA 
                     WARFARE DIVISION (N97)

    Admiral Richard. So, Chairman Forbes, Ranking Member 
Courtney, members, and staff, thank you for the invitation to 
speak here today on the undersea roadmap.
    My name is Rear Admiral Charles Richard, Director, Undersea 
Warfare. I have submitted my full statement to the committee, 
which I now ask be made a part of the hearing record, and I 
would like to give a brief opening statement.
    But before I begin, I would like to thank this committee 
for the tremendous support you have provided, that you just 
alluded to, to the entire submarine community in recent years. 
Without that support, the success we have achieved in the 
undersea domain would not have been possible.
    The undersea forces of the United States Navy provide 
significant, unique capabilities to the fleet and to the joint 
force commanders: Persistent, undetected, assured, far-forward 
access, and the influence that access provides. Should it be 
necessary, these forces can also attack at a time and place of 
our choosing to maximize the desired effects and minimize the 
risk to American lives.
    The Chief of Naval Operations' top priority continues to be 
to maintain and modernize the undersea leg of the strategic 
deterrent triad because it is foundational to our survival as a 
nation. As you can see on the first chart, the one to the left, 
this requires a force of no smaller than 10 operational 
ballistic missile submarines. To do that, we must procure 12 
Ohio replacement SSBNs [nuclear-powered ballistic missile 
submarines], no less, to provide this force and we must start 
in fiscal year 2021. The first Ohio replacement must be on 
patrol by fiscal year 2031. There is no margin left to further 
extend the Ohios [Ohio-class submarines].
    [The chart referred to can be found in the Appendix on page 
53.]
    Admiral Richard. Now more broadly, we will employ a domain-
centric system of systems approach to maintain undersea warfare 
superiority in the future, with submarines as a premier node in 
that system. This will enable a truly disaggregated warfighting 
approach. The demand from our operational commanders for this 
capability is strong and growing. Our combatant commanders are 
unanimous in their desire for significantly more attack 
submarine presence than we can provide.
    However, while a demand for submarines is strong, the 
submarine force structure will get worse before it gets better, 
as you can see on the second chart, the one to the right.
    [The chart referred to can be found in the Appendix on page 
54.]
    Admiral Richard. This decline is not the result of some 
recent decision, it is the consequence of budget decisions 
taken over not just years, but decades. The undersea forces 
have pulled all reasonable levers to address this issue and 
will continue to investigate potentially effective ways to 
improve the presence of our limited number of SSNs [attack 
submarines] during the shortfall time period. But it bears 
noting that while most of the measures taken will increase SSN 
forward peacetime presence, none of them increase the number of 
SSNs available to surge in the event of conflict.
    The only solution to inadequate surge capacity is to build 
more attack submarines. One potential option available that we 
continue to explore is procuring a second Virginia-class 
submarine in fiscal year 2021. We will shift to the chart.
    Our industrial base can build this ship. If built, the 
second fiscal year 2021 Virginia-class submarine would fill 
about 27 percent of the late 2020s attack submarine shortfall. 
It is a matter of resources and we are placing a high priority 
to address that challenge.
    The Navy is reexamining the requirement for the minimum 
number of fast attack submarines as a part of an overall Force 
Structure Assessment. The current requirement is 48, but that 
was developed over a decade ago in a much different strategic 
landscape. Many of the underlying assumptions in the 2006 work 
have changed and it may result in the requirement going up. 
This is a consequence of returning to a time of major power 
competition between recognized states.
    Rear Admiral Jabaley and I are here today to provide an 
update on our plan to provide as much of the necessary future 
undersea capability and capacity available within constraints. 
The following are key interlocking pieces that represent the 
backbone of the Navy's lean integrated undersea investment 
strategy.
    First, it is mandatory that we sustain our survivable sea-
based nuclear deterrent with at least the same level of at-sea 
presence as today. This is priority number one and underpins 
all other facets of our strategy.
    Two, all three submarine types go through large drops 
between 2025 and 2030 that are beyond fiscal and shipyard 
capacity to address. SSN procurement must be our second 
priority, as dictated by the force structure trough, also with 
an undersea strike capacity shortage between 2025 and 2030 
caused by the decommissioning of the guided-missile submarines. 
Beginning with the second Block V Virginia-class submarine, all 
follow-on ships will include a four-missile tube Virginia 
Payload Module [VPM]. But even with the incorporation of VPM, 
the loss in undersea strike capacity will only be partially 
regained by 2044.
    Three, as the SSN force structure gets smaller and the 
importance of its unique forward access grows, additional 
payloads are likely to be needed and employed. We have efforts 
underway to add new missile, torpedo, unmanned, and sensing 
capabilities to the force. We thank this committee and Congress 
for the support that has enabled many of these payloads, such 
as some unmanned aerial vehicles and unmanned undersea 
vehicles, to already begin to enter the fleet.
    Four, the smaller SSN force structure will require each 
boat to cover more physical territory and a wider array of new 
undersea targets and deliver an expanded set of capabilities 
that span the spectrum of military operations. The Navy 
appreciates the work the committee and the Congress have done 
to assure that we efficiently and effectively restart the 
production line for our heavyweight torpedoes and also to 
improve the next generation of future torpedo and missile 
capabilities.
    And finally, we will maintain our focus on the acoustic 
spectrum, but explore opportunities and challenges in emerging 
aspects of the environment. The future undersea force must 
build on the advances of the acoustic superiority program and 
maintain our momentum, but must also master challenging 
environments, such as electromagnetic maneuver warfare and 
cyberspace. A critical enabling technology we must pursue is 
Low Probability of Intercept, Low Probability of Detection 
Communications.
    The United States is fortunate to have what is by any 
objective measure the finest undersea force in the world. We 
face significant challenges to maintaining our undersea 
superiority, but we understand the challenges and are executing 
a realistic and economically feasible plan to address them.
    And then finally, I am excited to be a submariner in the 
Navy today. The men and women who are operating today and will 
operate in the future are some of the best and brightest and 
operate some of the most advanced pieces of military machinery 
at the far reaches of the world.
    I would like to thank you for this opportunity to speak to 
you today. And I would like to yield to Rear Admiral Jabaley so 
that he may make his statement, and then be happy to answer 
questions afterwards.
    [The joint prepared statement of Admiral Richard and 
Admiral Jabaley can be found in the Appendix on page 34.]
    Mr. Forbes. Thank you, Admiral Richard.
    Admiral Jabaley, we are glad to have you here and look 
forward to your comments.

 STATEMENT OF RADM MICHAEL E. JABALEY, USN, PROGRAM EXECUTIVE 
                     OFFICER FOR SUBMARINES

    Admiral Jabaley. Good afternoon Chairman Forbes, Ranking 
Member Courtney, and members of the committee. My name is Rear 
Admiral Michael Jabaley, I am Program Executive Officer for 
Submarines.
    It is an honor and privilege to testify before this 
subcommittee today, and I would like to thank you for your long 
and unwavering support of our Nation's undersea warfare 
programs.
    We are entering an especially dynamic period of undersea 
force development that I am excited to discuss today. I have 
submitted my full statement to the committee, which I ask be 
made part of the hearing record, and I will now make a brief 
opening statement.
    Admiral Richard discussed the Navy's number one priority, 
the Ohio replacement SSBN. To expand on the criticality of the 
timing requirement for delivery of the first Ohio replacement, 
remember that the Navy has stretched our current fleet of Ohio-
class SSBNs by extending the ship's life from 30 to 42 years. 
However, it cannot be extended any further. The result is that 
our current fleet of Ohio-class submarines will begin retiring 
at one per year starting in fiscal year 2027. The Navy can wait 
no longer to replace this critical asset.
    As a result, in addition to the roughly $700 million in 
RDT&E [research, development, test, and evaluation] funding, 
this is the first year that the Navy has requested SCN 
[Shipbuilding and Conversion, Navy] advance procurement [AP] 
funding, $773 million for fiscal year 2017, to begin 
construction of the first ship in 2021. This AP funding will be 
used to complete the detail design of the ship. Stable funding 
is necessary to achieve delivery by 2028 and patrol by 2031.
    On cost, the Navy takes its stewardship of taxpayer funds 
for this program very seriously. The Ohio Replacement Program 
effort began, first and foremost, with establishing the right 
requirements for the program. 2015 saw the completion of a 
number of significant benchmarks in the program's life cycle. 
In August 2015, the Joint Requirements Oversight Council, or 
JROC, validated the Ohio Replacement Capabilities Development 
Document defining the authoritative, measurable, and testable 
capabilities needed to perform the mission. The program also 
went through the Navy's Gate 4 review process this past 
November, ensuring the proper requirements are in place and 
establishing the program's technical baseline.
    Controlling that technical baseline going forward is 
equally critical in ensuring program success and diminishing 
the potential for cost overruns in the future. The Ohio 
Replacement Program has instituted formal and rigorous change 
control in management of the program's technical baseline to 
ensure that the platform requirements are maintained and 
controlled at the appropriate level.
    Presently, the program is preparing for the Navy Gate 5 
review and the Milestone B Defense Acquisition Board in August. 
Following those events, I would be happy to provide the 
committee an updated cost estimate for the program.
    As this subcommittee is well aware, the Navy's greatest 
challenge is to replace the current fleet of SSBNs, while 
rigorously controlling cost to allow continued shipbuilding of 
other classes, both surface ship and submarine, in accordance 
with the Navy's 30-year shipbuilding plan.
    While the Ohio Replacement Program clearly requires a 
significant funding effort, increasing ship procurement funding 
for SSBN recapitalization is historically consistent with the 
``41 For Freedom'' and Ohio-class procurement periods. During 
these years, ship procurement funding was increased $5 billion 
to $7 billion per year, adjusted for inflation, compared to all 
other post-Korean war years. We appreciate the subcommittee's 
special interest in this matter.
    One method of controlling and even reducing cost is through 
the use of innovative acquisition and contracting strategies. 
The Navy would like to thank the subcommittee for including 
continuous production authority for Ohio replacement in the 
House version of the fiscal year 2017 National Defense 
Authorization Act. This authority would play a key part in 
reducing schedule risk for both the U.S. and the U.K. [United 
Kingdom] SSBN missile tube construction programs, as the 
missile compartment projects to be a critical path in the 
construction timeline.
    In addition to schedule risk reduction, continuous 
production authority will assist the program in achieving 
maximum economic advantage. Procuring high-volume, high-value 
components such as missile tubes in continuous production lines 
will provide savings opportunities through manufacturing 
efficiency, increased learning, and the retention of critical 
production skills.
    On the attack submarine, the Navy continues to deliver 
Virginia-class submarines ahead of schedule and within budget. 
The program has been delivering ships for 11 years now with 12 
delivered, 11 under construction, and 5 more under contract. 
Over the program's duration and with this subcommittee's 
assistance, we have cut construction span by 2 years and 
achieved significant savings through the use of multiyear 
procurement contracts with advanced procurement and economic 
order quantity funding, effectively allowing the Navy to 
purchase 10 subs for the price of 9 in our most recent Block IV 
construction contract.
    Our budget request this year includes advance procurement 
funding for long-lead-time material for the first ships of 
Block V, and we are committed to identifying further savings. 
As Admiral Richard stated, since the Navy will fall below the 
force structure requirement of 48 attack submarines in the late 
2020s, it is critical that we continue to deliver Virginia 
submarines ahead of schedule and within contract cost at a pace 
of two per year for as long as fiscally possible. The second 
Virginia in fiscal year 2021 would, in particular, be the most 
valuable addition to the shipbuilding plan as it would deliver 
just as the Navy starts to fall below the 48 SSN requirement 
and will be in service for the entire remainder of the trough.
    The technology for the Virginia-class program has evolved 
dynamically over the span of the program, most recently with 
the addition of the VPM in Block V. As Admiral Richard 
discussed, the VPM concept was introduced to address the 
eventual loss of guided missile strike capability in the mid-
2020s when the Navy's four SSGNs [nuclear-powered guided-
missile submarines] retire, reducing Navy-wide undersea strike 
volume by almost two-thirds.
    VPM is the optimal material solution to recapitalize 
undersea strike without substantially changing a mature and 
stable submarine design. VPM provides Virginia-class submarines 
with a greater than three times increase in payload capacity at 
less than 15 percent cost increase per SSN. VPM is currently 
planned for introduction starting with the second Block V ship 
in fiscal year 2019 and will be integral to the remainder of 
the Virginia-class submarine build, resulting in a total of 19 
Virginia-class submarines with this additional payload 
capacity.
    A final major technical development in Virginia-class 
submarines is acoustic superiority, the first significant 
capability improvement in Virginia arrays or coatings since its 
initial design. This initiative is in accordance with the Chief 
of Naval Operations' undersea dominance mandate to pace the 
future threat. This program guarantees our submarines acoustic 
superiority in the undersea domain through the mid-century. The 
South Dakota Insertion Program will serve as technology 
demonstrator for acoustic superiority when this technology is 
outfitted on USS South Dakota in 2018.
    As the shipbuilders continue producing two Virginia-class 
submarines per year, along with the introduction of Ohio 
replacement [OR] and Virginia Payload Module and acoustics 
superiority, there will undoubtedly be a significant increase 
to the workload of the nuclear shipbuilding industrial base. 
The Navy has developed the optimal Submarine Unified Build 
Strategy for concurrent OR and Virginia-class production using 
the guiding principles of affordability, delivering Ohio 
replacement on time, maintaining Virginia-class performance 
with a continuous reduction in cost, and maintaining two 
shipbuilders capable of delivering nuclear powered submarines.
    I would like to emphasize that both shipbuilders were equal 
partners in coming to a consensus that serves both the Navy and 
the industrial base well. We also enlisted a team of 
acquisition professionals to provide an independent assessment 
of the submarine enterprise. This extensive analysis resulted 
in the final agreement.
    General Dynamics Electric Boat will be the prime contractor 
and delivery yard for Ohio replacement, while about 22 percent 
of the labor hours for Ohio replacement will take place at 
Newport News Shipbuilding. Both contractors will continue 
delivering Virginia-class submarines. The Navy plans to 
negotiate Virginia delivery details at each block contract, 
ensuring workload is apportioned between the two to best 
support the goals and priority of Ohio replacement and then 
Virginia deliveries. Presently, the Navy is looking at the 
feasibility of constructing two Virginia-class submarines in 
the same years we construct Ohio replacement. In addition to 
providing a report to Congress, I would be happy to brief the 
subcommittee on the results of this analysis when complete.
    In conclusion, I would like to thank the chairman, the 
ranking member, and the committee and staff for your continued 
support of our endeavors on behalf of our sailors and civilians 
and for the opportunity to appear before you today. Thank you, 
and I look forward to your questions.
    [The joint prepared statement of Admiral Jabaley and 
Admiral Richard can be found in the Appendix on page 34.]
    Mr. Forbes. Admiral, thank you.
    I know that some of our members may have flights to catch 
to get out of here, so I am going to defer my questions until 
the end.
    And with that, I would like to recognize Mr. Courtney for 
any questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman. As the chairman 
said, you know, even though we don't have a full boat here in 
terms of members, the record that is being created is 
incredibly important and useful.
    And, you know, I would just note, Admiral Jabaley, your 
comments on continuous production as we go into conference is 
extremely helpful in terms of, you know, focusing folks from 
both chambers on the value of what this subcommittee did. And 
we, I am sure, will not just excerpt it, may frame it to the 
conference committee. So again, your testimony here, to both of 
you, I just want to reassure you, this is extremely valuable 
and important.
    I am just going to ask a couple questions and then defer to 
the other members. Again, you both testified that the 2021 
second Virginia class is a priority for the Navy in terms of 
trying to mitigate the trough. And, I guess again, I just would 
ask you to just sort of confirm, you know, your confidence 
level in terms of the shipyards being able to handle that. And 
then also, if you have any--I know you said a report will be 
coming on the later years, but just, you know, in terms of 
where the shipbuilding plan was, you know, 6 months ago, 18 
months ago versus today, you know, whether, again, the 
confidence level is growing as far as the industrial base, you 
know, capacity to handle that order.
    Admiral Richard. Ranking Member, I mean, I will start off 
with, we have long aspired for additional attack submarine 
capability. We have known that this trough was coming for a 
long time. The requirement is 48 and, you know, we are in a 
world environment that has changed since 2006. And without 
speculating on the outcome of the Force Structure Assessment, I 
am pretty confident that the value of each attack submarine we 
have is only going to go up. And then, so now that we have this 
opportunity, there is a clear warfighting demand signal for it 
and that is driving us to, you know, look for every opportunity 
to provide this.
    Admiral Jabaley is going to talk for a second in terms of 
the ability to deliver it, and then I will finish with some 
thoughts in terms of how we will go about putting a priority 
towards the resources, sir.
    Admiral Jabaley. So Admiral Richard talked about the 
strategic landscape and why it is so important that we maximize 
the opportunity for submarine force structure any way we can. 
We also talked about how the 2021 submarine, in particular, is 
important because it delivers in time to start filling almost 
the entirety of the trough with one additional submarine in 
every year.
    From a shipbuilding standpoint, what gives us confidence 
that we can affordably produce this submarine while we begin 
the production of the Ohio replacement is a couple of things. 
First, as the design of the Ohio replacement SSBN continues to 
mature and we know with better and better fidelity what that 
ship will look like and how we are going to build it, we are 
able to work with the shipbuilders to produce a more detailed, 
integrated enterprise plan for construction of Ohio replacement 
and Virginia simultaneously. And as that process has matured, 
what we have come to understand is that the real value is in 
continuing the steady cadence on the Virginia side because you 
can do that, the initial stages of Ohio replacement, without a 
significant overlap or competition between the two programs.
    The facilities that we are building to produce the Ohio 
replacement are separate and distinct from those that we are 
using for Virginia-class submarine. There is obviously an 
overlap in terms of the workforce, the personnel required, but 
because the Virginia-class build span at that time should still 
be nearing 5 years, we anticipate a bit of a setback when we 
incorporate the Virginia Payload Module, but it will quickly 
get back down to 60 months or 5 years. The Ohio replacement 
initial hull is scheduled for a 7-year build span. So adding in 
the second Virginia in 2021, coincident with starting to build 
the first Ohio replacement, we are confident that we can do 
that without a significant capacity expansion on the part of 
the shipbuilders.
    As I mentioned, we are not yet done analyzing what it would 
take to do that throughout the entirety of the Ohio replacement 
build, because you get the stackup of parallel production of 
Ohio replacements as you get further and further into the 
build. So when you are looking at authorizing the second Ohio 
replacement in 2024 and then the third one in 2026 and then one 
year thereafter, so by the time you are in 2026 and 2027, you 
have three and now four and then five Ohio replacements in 
parallel production. We are convinced that we would have to 
expand the facilities to sustain two-per-year Virginias during 
that timeframe. And as the details become more and more clear, 
then we will be able to cross that out and the Navy will be 
able to make rational trades between capacity here and capacity 
elsewhere. But we are convinced that the fiscal year 2021 
second ship is achievable without a significant investment in 
facilities for the shipbuilders.
    Mr. Courtney. And one other question. You mentioned, 
Admiral Jabaley, the acoustic superiority initiative with the 
South Dakota. Why is that a priority? I mean, there is 
obviously a lot of sort of defense press that talks about, you 
know, is the undersea realm really going to be as opaque as in 
the past and metadata, et cetera. Maybe if you can just sort of 
elaborate about whether--you know, why the acoustic superiority 
investment?
    Admiral Jabaley. Sure. I will make a brief remark, and then 
let Admiral Richard address it from the requirements 
standpoint. But, you know, my career in submarines started, I 
got the end of the Cold War, I was stationed in Italy when the 
Berlin Wall fell and the Soviet Union pulled all of their ships 
out of the Mediterranean. And then for a couple of decades, a 
decade and a half, you know, we really thought that submarine 
warfare had changed to a littoral-based event.
    In the last 6 or 7 years, we have witnessed a renewed 
effort on the part of peer competitors, in particular Russia, 
with building high-end, very advanced, very quiet nuclear 
submarines. My predecessor had a model of the Severodvinsk 
built to place outside his office so he could look at it every 
day when he went to work as PEO Subs [Program Executive Officer 
Submarines] and remind himself of what the threat is. That 
model remains there outside my office now. The Severodvinsk is 
operational, has deployed. And the ability of the Russian Navy 
to produce a very quiet submarine is clear. And they, by every 
indication, will continue to do so.
    So we never want to be in a situation where we have 
acoustic parity. We want acoustic superiority because we want 
to have that advantage in the undersea domain no matter what we 
do.
    So at this point, I will turn it over to Admiral Richard to 
discuss the requirements and how they were derived for acoustic 
superiority.
    Admiral Richard. Thank you, sir.
    And, Ranking Member, if I could, undersea, it is always a 
competition. And the United States has long had acoustic 
advantage over its adversaries, potential competitors. But we 
don't take that for granted. And there is always efforts on 
both sides attempting to close that gap.
    We think we have found a significant opportunity that 
acoustic superiority is designed to exploit. To go into more 
detail, I would like to offer you a classified briefing on this 
subject, but it is a very exciting opportunity that we think we 
can exploit to maintain our acoustic advantage well into the 
future.
    There is another point that I would like to address. You 
mentioned the idea of the oceans going transparent. We have 
long--starting with our ballistic missile submarines, we 
actually have programs that look at both ballistic and attack 
submarines, have worked to ensure the security of that force. 
So we are looking well into the future, decades. And it is a 
physics-based, intel-informed program to see are there are any 
phenomenologies that might be used to either find our 
submarines or that we ourselves could exploit to go find 
competitors' submarines. And in that work, the notion that the 
oceans are going transparent happens about every 5 years, 
insert the latest technology. I myself was in that program over 
30 years ago. In the 1980s, it was satellite sensing; today, it 
is unmanned undersea vehicles and big data.
    What I would like to point out is the physics undersea are 
brutal. Electromagnetic waves, radio waves travel short 
distances in water. So the opportunity to use a sensing 
technology like radar doesn't exist. Acoustics does, but it 
gets distorted and it takes great skill to be able to interpret 
that. So we are very confident in terms of our ability both to 
hide our own submarines and then exploit what is available so 
that we may find someone else's submarines.
    Thank you, sir.
    Mr. Forbes. The gentleman from Virginia, Mr. Wittman, is 
recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thanks so much for joining us today and thanks 
for your service to our Nation.
    I wanted to put in perspective, you spoke about AUVs 
[autonomous underwater vehicles], and we are seeing--with 
weapons applications in these emerging adversarial UAV systems. 
I want to get your perspective on where that leaves our forces 
looking at a future adversarial force with these AUVs.
    First of all, what are our platforms capable of doing? Can 
we deter them? And what size and scope of that adversarial UAV 
force should we expect in the years to come--I am sorry, AUVs.
    Admiral Richard. Unmanned undersea vehicles I think that 
you are referring to, Congressman----
    Mr. Wittman. Yes.
    Admiral Richard [continuing]. Of course. So, one--I don't 
want to use a Navy term. We are at all ahead flank, you know, 
maximum speed ahead in our ability and desire to exploit 
unmanned undersea vehicles, the technology. We intend to field 
a family of systems. We have some in the fleet now. We have 
conducted real-world missions, forward deployed. And I would 
like to offer you a classified brief on the details, I think 
you would be pretty impressed if we had a chance to show you. 
And then behind that, we have larger systems that are underway.
    So, one, we are learning how the technology works and what 
you can use it for, which then enables us to understand what 
might be done against us in the same way such that then we can 
be prepared to counter the use of those technologies.
    And I just referred to the SSBN and attack submarine 
security program. They have active efforts to understand what 
our vulnerabilities might be to that type of technology and 
that type of system and then prepare our countermeasures, 
whether that be technology or operational concepts to be ready 
should they be employed against us, sir.
    Mr. Wittman. Let me ask this. Tell us about the new and 
emerging technologies in electromagnetic systems. And are the 
technologies there available to be used in these autonomous 
underwater vehicle systems?
    Admiral Richard. Congressman, absolutely. Many of the 
pieces in an RF [radio frequency] system benefit from Moore's 
law, right, the ability--the rate that processing improves. In 
fact, so new architecture, such as a software-defined radio, 
where most of the work that is done is done in software and not 
hardware. UUVs [unmanned underwater vehicles] are an ideal 
place to exploit that technology.
    But the other piece we have to be mindful of as we push 
down those lines is what parts of the system do not get to 
exploit advances. Antennas, for example, are not affected by 
Moore's law, and we have to be equally creative in overcoming 
those limitations so that we can put end-to-end systems 
together.
    And again, the final point is, we use technology to 
accomplish missions, right, not the other way around. And so we 
will go look at the missions that we have to accomplish and 
look at a wide range of technologies, whether it be new or old, 
to find the best way to go accomplish the tasks we have been 
given.
    Mr. Wittman. In looking at our rivals' efforts in anti-
access/area denial efforts, how does the Navy look at being 
able to, within that scope, determine how you would most 
effectively deploy and apply these autonomous underwater 
vehicle systems?
    Admiral Richard. Again, Congressman, I would go back to you 
use a system of systems approach. Right? And so you analyze the 
capabilities that a potential competitor has put together in 
terms of his system and then determine what vulnerabilities, 
weaknesses, asymmetric advantages can you bring to bear. The 
submarine force itself has long been one of the asymmetric 
advantages the United States could bring to bear. Unmanned 
technologies enable us to extend that further.
    You may have heard in the past the term dull, dirty, and 
dangerous applied to the use of unmanned systems. I think that 
is too limiting. It is dull, dirty, dangerous, or otherwise 
impossible, that we should start with a mission that it is not 
possible to do today, utilize this technology, and further find 
ways to extend the advantage the undersea forces provide to the 
Nation.
    Mr. Wittman. In the realm of UUVs, there is a lot of 
technology that occurs very quickly and we would hope that it 
could be applied quickly. Under the current system of 
acquisition and procurement, are we capable of taking the 
technology that develops literally on a daily basis, put that 
into practice, and apply it and get it to the fleet within a 
quick realm of time?
    Admiral Jabaley. Yes, we are. It requires a multifaceted 
approach, but we--there are several opportunities for us to do 
rapid prototyping and, as we call it, you know, getting things 
wet.
    So the operation that Admiral Richard alluded to was one 
that we conducted on the USS North Dakota. And it was 
especially impressive because it occurred between her delivery 
and before the start of her PSA [Post Shakedown Availability]; 
so a ship that was delivered out of construction and was 
deployment ready right away. And what we did is installed a dry 
deck shelter on her and then took two commercially available 
UUVs, the Remus 600s, and she did a real-world operation where 
she deployed those UUVs on a rotating cycle so they could go 
off and do the work the submarine didn't want to have to do, 
and the submarine could do other things while the UUVs were out 
there.
    And so through the leadership of Commander, Submarine 
Forces, Vice Admiral Mike Connor and now Vice Admiral Joe 
Tofalo, that program was instituted and run through the 
Undersea Warfare Chief Technology Office through the assistance 
of NUWC [Naval Undersea Warfare Center] Newport, NUWC Keyport, 
Submarine Development Group 5, Det UUV [Detachment Unmanned 
Undersea Vehicles] out in Bangor, Washington; they all worked 
together to field that operation and produce a real-world 
mission completion which was very impressive.
    We continue to do the same things exploring every 
opportunity and with the philosophy of ``let's test these 
things out, let's see what we can do for developing the concept 
of operations, and then figure out what we want to go buy.'' We 
are also doing the same with submarine-launched unmanned aerial 
vehicles [UAVs]. The Blackwing UAV is a 3-inch launcher-
deployed aerial vehicle that communicates back to the ship and 
relays full motion video out to line-of-sight distance and 
greatly expands the reach of the submarine sensors. So we are 
able to do this. We are using alternate methods within the 
acquisition framework to test items out, figure out what works, 
and then figure out what we want to buy as a Navy.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. I thank the gentleman.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Admiral Jabaley, just to follow up on Mr. Wittman's 
questions, as you are going through and testing these different 
AUVs or even the UAVs, what are some of the risks that you 
foresee in testing these platforms, and what precautions do you 
feel need to be addressed in order to kind of address any 
potential liabilities?
    Admiral Jabaley. I would say that the two biggest risks are 
cyber and then the energy source. So any time you deal with a 
commercial off-the-shelf item, you have to make sure you 
understand what the provenance is of the components that go 
into it, the programming that goes into it, where the circuit 
boards came from. So we have a very rigorous process to go 
through that with the contractor and understand what it is that 
we are buying.
    The second thing, the energy source, everything that we are 
testing will be deployed from a submarine, so we have very 
critical safety standards for items that we bring on to the 
submarine. Lithium ion batteries have a checkered history, so 
we are working very hard to use what is called a ``Speed to 
Fleet'' program to develop a safe way to store, charge, use, 
recharge lithium ion batteries in unmanned vehicles that will 
be deployed from submarines.
    Both of those risk items are manageable. We have very 
active and, as I said, rigorous programs to ensure that we 
don't incur a risk that we are not willing to accept.
    Ms. Gabbard. Integrating these technologies into the 
current Navy surface and subsurface platforms is something that 
we have talked more of. Of other military applications, do you 
see any capacity for these systems to be implemented or used by 
the SEALs [Sea, Air, Land teams] or any special warfare units?
    Admiral Jabaley. Absolutely. And there are things that we 
are testing--again, I would be happy to brief you in classified 
session--that do just that. But many of the--many of the 
vehicles that are being developed, some are deployable from 
either a submarine or a surface ship, some are from submarines 
only, some are from surface ships only, but we look at the 
whole span of capability and how best to use it in both a whole 
Navy and even a joint environment.
    Ms. Gabbard. Great. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The gentleman from California, Mr. Hunter, is 
recognized for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    I am going to do what lawyers say not to do and ask a 
question I don't know the answer to. I just play a Congressman 
on TV too. It's crazy.
    So here is the question. So you said, Admiral Richard, that 
you had a period where, I mean, things--every 5 or 10 years, 
everybody said something is dead, it is never going to happen 
again, we are never going to have conventional war, we are 
never going to have--we are never going to have open ocean 
battles or under ocean battles anymore, and this--but this 
happens. We are going through a period where we thought there 
would be counterterrorism and COIN [counterinsurgency] forever, 
now we are coming out of that too.
    Here is the question, did we lose in any way the ability to 
fight in the Arctic, or have you guys been doing this the whole 
time while we have been screwing around in the desert?
    Admiral Richard. Congressman, first, before I answer your 
direct question, what I was referring to is the notion that the 
oceans are going transparent.
    Mr. Hunter. Right.
    Admiral Richard. That is what I was specifically referring 
to.
    As far as the Arctic goes, you are quite correct, the 
submarine force never left the Arctic. Right? We have 
maintained a periodic drumbeat of operations and exercises. We 
most recently completed ISEX 16 [Ice Exercise 2016], where we 
go up, we take two submarines, we do tactical development, we 
verify our procedures work. It is a great source of 
information, both for the Navy and the Nation, on the changing 
conditions up in the Arctic. This involves putting up an ice 
camp for several weeks, a large number of personnel. And while 
it is a submarine force-focused exercise, the broader Navy, as 
well as the joint force, takes advantage of it.
    So there are a number of demonstrations of search and 
rescue capability, use of unmanned aerial and undersea 
vehicles, as well as the Department of State and other 
interagency folks took advantage of it as a forum to show 
United States leadership on Arctic issues. ISEX 16 followed the 
one in 2014, and we have been doing this every 2 to 3 years.
    Mr. Hunter. You have been doing them.
    Admiral Richard. We have, yes, sir.
    Mr. Hunter. So this is not secret. I know this because I 
talked to General Dunford 2 days ago and he told me this over 
the phone so it is not secret, so I am going to go ahead and 
throw it out there. There is no icebreaking capability called 
for in an Arctic competitor clash, there is no icebreaking 
capability that is in the OPLAN [operation plan]. Is that 
because you don't need it? And you can tell me, we can do it 
classified or talk now. This is the question I don't know the 
answer to.
    Admiral Richard. Congressman, I would need to take your 
question for the record. I can't speak authoritatively about 
our capabilities or lack of capabilities in the Arctic beyond 
what we have inside the submarine----
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Hunter. Do you need icebreakers in the Arctic?
    Admiral Richard. The submarine force does not need 
icebreakers.
    Mr. Hunter. Does not need.
    Admiral Richard. The submarine force does not.
    Mr. Hunter. Is there a limit to--so there is no--are you 
saying ice cannot get thick enough environmentally for you to 
not be able to break it? Does that make sense? Did I say that 
right?
    Admiral Richard. No. The ice is not a limitation to our 
ability to operate in the Arctic. There is a limit to the 
amount of ice that a submarine might need to go surface through 
if it needed to come up. But we are quite capable of operating 
submerged for very long periods of time, and that is not a 
limitation in the Arctic for us.
    Mr. Hunter. Admiral, you got anything good? That answers my 
question.
    And by the way, thanks not just for what you do--I mean, me 
and Mr. Moulton have gone and gotten shot at and stuff a few 
times. And I don't even want to go in a submarine, even on top 
of the water. Really. I have been invited. I don't want to go 
on one, in one, underwater. Appreciate what you guys do. It is 
pretty amazing how smart you are and how well you execute. I am 
just happy we have you. Thank you.
    I yield back.
    Mr. Forbes. I now will recognize the gentleman from 
Massachusetts. See if he has a response to that. Mr. Moulton is 
recognized for 5 minutes.
    Mr. Moulton. No, no, no. Thank you, Mr. Chairman. I did 
grow up on the water, but I have never been in a submarine 
myself, so I don't know how scary it might be.
    But, you know, I am going to ask some fairly sort of--
follow my fellow marine's lead and ask a question I don't know 
the answer to. But it is a much more high level question. What 
are the things that keep you up at night? What are the things 
that you worry about, not just the short-term battles that you 
have to fight with the budget and everything, but in the next 
10 to 20 years, what are some of the challenges that you 
think--and I am sure you would have a great--and it would 
probably be easier to answer this question in a classified 
setting and you could cite specific examples of things enemies 
are developing or whatnot. But what are the things that you 
worry about that the American public should know?
    Admiral Richard. Congressman, I will go first on that. And 
if I could, I would start with the things I don't worry about. 
Right? I have very high confidence in our forces, their 
leadership, and our ability to execute the missions that we 
have been asked to do today. And I don't need to go into a 
classified forum to tell you what I am worried about.
    What keeps me up at night is my fear that this Nation takes 
for granted the benefits it achieves from strategic deterrence. 
Right? We have not had nuclear use for over 70 years. So we 
have enjoyed 70 years of nuclear nonuse. We have enjoyed 70 
years of no major power war. We have had wars in the last 70 
years. You all have been parts of them. Right? And we have lost 
great amounts of blood and treasure. But that pales in 
comparison to the level of violence that was World War II. And 
I submit that strategic deterrence is a key reason that this 
world has not had to endure a sacrifice like that.
    And so when it comes time for the Nation to make the 
decision to recapitalize its strategic forces, a decision that 
this Nation has wisely made twice in the past and paid a small 
premium to buy us a defense against our only existential 
threat, I worry that we have been so successful over--that is 
what the point behind chart 1 is. We have been doing this for a 
long time. This goes back to the early 1960s.
    Mr. Moulton. Yeah. I guess, you know, my concern with 
that--and I agree with you fundamentally. And there is no one 
in this room who thinks that we don't have to have a successful 
nuclear deterrent. We are all on the same page there. There are 
some disagreements on the details of how you get there.
    And one of the things that concerns me is that we have to 
be very serious about deterring Russia, especially under Putin, 
who is completely unpredictable. And I think, you know, it is 
not inconceivable that he could use nuclear weapons in a first-
use scenario. But we also have to be concerned about nuclear 
terrorism. And the problem with a nuclear-armed terrorist is 
that the conventional deterrence doesn't work at all. It is 
really meaningless, in fact.
    So we have to balance our--you know, how much we spend on, 
for example, our strategic forces versus nonproliferation 
efforts to secure fissile materials. Can you just comment on 
that a bit and how you see that equation playing out in the 
next 10 years?
    Admiral Richard. Well, Congressman, what I would offer is, 
one, I agree with you. The obligation of the United States Navy 
and the Department of Defense is defend the Nation against all 
the threats that it faces, not some selective subset. And this 
capability is not designed to defend or deter against every 
threat that the Nation faces, but it is designed to deter 
against the stack that there is no other way for us to do that.
    And so, again, having twice made a decision at about the 
same order of magnitude, I think it would be prudent for the 
Nation to make it again. And then additionally, if necessary, 
find the capability and resources necessary to deter against 
additional threats such as a nuclear-armed terrorist.
    Mr. Moulton. Sir.
    Admiral Jabaley. Congressman Moulton, first I would like to 
remind you, I am sure you already know, but the submarine that 
we will start building next March will be the USS 
Massachusetts, and it will be delivered in 2022. But I don't 
want to wait until then to get you onboard a submarine. So we 
will take an opportunity to get you onboard. And if you can 
pull your friend with you, that would be great.
    The things that keep me up at night are much more at the 
tactical level. My friend, Admiral Richard, is paid to think at 
the strategic level. I am paid to work at the tactical level. 
So the thing that keeps me up at night is the amount of work 
that the submarine industrial base is going to have to ramp up 
to accomplish over the next two decades. I don't think we can 
underestimate the significance of that process both in terms of 
facilities expansion, manpower resource expansion, the sheer 
act of figuring out how to build two separate classes of 
submarine in the same places at the same time and get 
everything in line to proceed to completion in time for me to 
deliver that first Ohio replacement platform so his requirement 
for continuous strategic deterrence from the undersea forces is 
executed.
    Mr. Moulton. Thank you gentlemen very much.
    And thank you, Mr. Chairman, for the extra time.
    Mr. Forbes. The distinguished gentleman from Texas who 
consistently fights to have a submarine or carrier homeported 
in his district, Mr. Conaway.
    Mr. Conaway. Well, thanks. That is an inside joke. I live 
in the desert. And so--and I don't have any shipbuilders 
either. Noah's Ark was built in the desert, but that didn't 
work, so--I don't have any questions since I wasn't here for 
the opening statements. I yield back.
    Mr. Forbes. The gentleman from Rhode Island, Mr. Langevin, 
is recognized.
    I am sorry. If I could, the gentlelady from Florida, Ms. 
Graham, is recognized for 5 minutes.
    Ms. Graham. If my colleague from Rhode Island would like to 
go first, I am happy----
    Are you sure? All right. Thank you so much.
    Hi, gentlemen. I am going to sort of segue from Mr. Hunter 
and Mr. Moulton. I am going to be going on a submarine in 4 
days, July 18. So I am very much looking forward to it. And 
thank you both for all that you do.
    But--so I also have the honor of representing the north 
part of Florida. And you know there is a lot of naval activity 
in Panama City region. And I had the chance recently to go and 
tour an incredible operation that is building some of these 
fantastical--is that a word? Is that a word? I am making it up. 
Okay--these technology-driven underwater miracles that do so 
much. And while I was there, I was looking at all that was 
being done. And I thought, what is not being done that would be 
beneficial to the Navy? So that is what my question, following 
up on what my colleagues--Mr. Moulton was asking, what keeps 
you up at night. What would you like to--if you could have the 
technology dream, what would you like to have developed that 
would help you and let you sleep better?
    Admiral Jabaley. Thank you very much, ma'am. And North 
Florida is dear to my heart. I have a son in flight training in 
Milton, Florida. But he has spent a few days in Panama City. I 
think that was spring break.
    But the thing that I would like, I would divide into two 
things. You know, what would I do if I had the technological 
ability and then what would I do if I had the fiscal ability. 
From a technological ability, the two things that I have asked 
my team to look at for the future attack submarine, the one 
beyond Virginia, is, number one, a holistic integral way of 
employing and deploying unmanned underwater vehicles. 
Everything we have done to date has been through repurposing of 
an existing interface between the submarine and the ocean. We 
have used torpedo tubes, we have used signal ejectors, we have 
used the dry deck shelter. We have even used the trash ejector 
as a way to get a payload out of the submarine to employ it.
    I would like some organic means of designing the submarine 
from the ground up that would seamlessly integrate UUVs. You 
know, the dream, actually, would be if you have ever seen 
remora, so those are the little fish that suck onto the big 
fish and go along and seem to not affect the big fish at all, 
ride in the stream, and then when it is time for them to go off 
and do something, they do, and then they come back. So that is 
forward-thinking. It is different from anything we have done. 
And it will take a while to get there. But since I am dreaming, 
that would be my technological leap.
    The second one on that is, at some point, we are going to 
have to move beyond a rotating mechanical device to push the 
ship through the water. Because although we are not there yet 
on the oceans being transparent, one of the biggest things that 
causes noise to be radiated into the water is the rotating 
machinery and the propulsor itself moving through the water and 
exciting various parts of the stern of the submarine to radiate 
noise. So the field of biomimetics is very interesting to me.
    Again, when you look at nature in action and you think, 
boy, it would be great if we could design something that would 
take that leap forward and get us into a realm that would be 
acoustic self unlike anything we have ever done before. So 
those, again, very far off, very out there type ideas, but 
things that we need to be thinking about to get there 
eventually.
    And then from a fiscal constraint, we have talked about the 
need to build the Ohio replacement, we have talked about the 
need to build two-per-year Virginias. But the one thing that we 
are not able to afford right now is an immediate 
recapitalization of the special operations forces capacity of 
the SSGNs. So they have the ability to carry two dry deck 
shelters, which is very valuable to our brothers and sisters in 
the special operations forces community. And in order to make 
it affordable, the Virginia Payload Module is focused on strike 
warfare alone, Tomahawk missiles, other potential payloads. So 
it does not recapitalize that dual dry deck shelter capability. 
We will have to do that at some point. And we are working on 
ways to do that affordably, but it is not in the plan right 
now.
    Ms. Graham. Do you have anything? If not, I will yield 
back.
    Admiral Richard. Admiral Jabaley, that--you see why he has 
his job.
    Ms. Graham. Well, I will tell you gentlemen that if there 
is place that the dreams can come true, it is Florida. And so 
we will take this information back and see--I think that--it is 
the remora fish. Right?--that we can name the new--we have 
named it.
    All right. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Now the gentleman from Rhode Island, Mr. 
Langevin, is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. Before I begin my 
questions, I just wanted to say I know that we are going to be 
recessing after today and not coming back until September. And 
I am not sure how many hearings we are going to have between 
now and the end of the year. But let me just say what a 
distinct privilege it has been to serve with you, and I deeply 
appreciate your leadership on the subcommittee and the Congress 
and everything you have done for our fleet, particularly our 
submarines and our sailors, men and women, who serve our 
Nation's military. You have made a difference, and I am 
grateful for your friendship and your leadership.
    To our witnesses, thank you, Admirals, for being here, for 
your service to our Nation. I know that Mr. Courtney touched on 
this earlier, but we recently learned that after evaluating the 
prospect of a second attack sub in 2021, even with the Ohio 
replacement production ramping up, the Navy believes it can 
squeeze a second Virginia-class submarine into its construction 
plan. I am certainly thrilled with this prospect, and I know 
the capacity that Electric Boat in Quonset-Davisville in my 
district have for ramping up and taking on this challenge, as 
well as the folks in Groton, Connecticut. But can you elaborate 
on what went into this decision-making process, just to 
enlighten us?
    Admiral Richard. Congressman Langevin, thank you for the 
question. And we have long aspired, right, for additional 
attack submarine capacity. The requirement is 48. We have long 
known that we would have a shortfall in the late 2020s. And 
then even beyond that, the world situation has changed. We are 
back in a time of major power competition, which adds even more 
value to each additional submarine that we can add. And that 
that makes this opportunity for a second Virginia in 2021 the 
last best opportunity that we have to address that attack 
submarine shortfall.
    What I was trying to show in the second chart up here is 
the effect of that submarine. They are the light pink blocks 
that paint, if you will, across the trough. Right? So the one 
decision, this one submarine, addresses 27 percent of that 
shortfall. Anything that we do after this point, the ship 
doesn't get delivered in time to affect that. That makes it our 
last best chance. And then beyond that, we have analyzed to the 
point that we have industrial base capacity to build that ship. 
And I would like to turn it over to Admiral Jabaley to go into 
more detail on that point.
    Admiral Jabaley. Thank you, Admiral Richard.
    And thank you, Congressman Langevin. So the--it is 
important to remember that, until 2011, the Navy's ship--long-
range shipbuilding plan continued Virginias at two per year out 
through 2029. The 2009 shipbuilding plan was the last one 
before 2011. And it was two per year through 2029, at which 
point we would have reached 48 SSNs, and it would drop to one, 
two, one, two, one, two going on, which is what you need to 
maintain a force of 48 when the submarines have a 32-, 33-year 
lifespan.
    In 2011, when the Navy completed--had completed the initial 
cost estimate on the Ohio replacement, we were forced to reduce 
the Virginia-class build rate to one per year during the years 
that we were building Ohio replacement as a fiscal measure. It 
is still a fiscal challenge to do so. But as Admiral Richard 
mentioned, the combination of the change in the strategic 
landscape with the resurgence of Russia, the ascendance of 
China, the combatant commanders stating the need for additional 
attack submarine deployed presence, it has become clear that 
building additional submarines is the only thing that will 
satisfy that combatant commander need and the only thing that 
will help improve submarine force structure inventory.
    At the same time as that, we have gained better knowledge 
on the Ohio replacement design and better fidelity and maturity 
of the integrated enterprise plan to improve the facilities, 
increase the manpower, and design the throughput of all the 
sections and the modules that become the submarine for both 
Virginia class and Ohio replacement simultaneously. So as we 
learn more and understand that better, we have gained more and 
more confidence that we can do it from a shipbuilding 
standpoint. Now the process is, okay, how much will it cost to 
add that additional submarine and how can the Navy best afford 
it?
    Mr. Langevin. That is welcome news. And I am hopeful for 
that prospect, that it comes to be.
    Just finally, strengthening our network security and 
protecting against cyber attacks requires a partnership, of 
course, among government, industry, academia, and security 
researchers. How is the Navy collaborating with these entities 
to put best practices into effect? What steps are being taken 
to secure submarine systems from cyber attacks?
    Admiral Jabaley. It is a great question, Congressman, and 
it is one that is at the forefront of my mind. As a matter of 
fact, I just had an hour-and-a-half classified brief this 
morning on the very topic. So I can't go into the details, 
but--so I look at cybersecurity in three distinct parts.
    The first is the cybersecurity of our industrial base. We 
want to make sure that our contractors fully understand the 
requirements for protecting the information, the design 
information, the operation information, and the maintenance 
information for everything that we build for the submarine 
force. And we are very hard on them. It is a very rigorous 
process to ensure that their IT [information technology] 
systems are adequate and well protected. You know, the stories 
are plentiful of U.S. military designing something and then 
only a couple of years later, something coming out in another 
part of the world that looks extremely similar because that 
design information has been siphoned off somehow.
    So I tell everyone that I never want to see anything in the 
undersea domain that looks remotely like what we are building. 
I know we are building the best, and we need to protect it and 
keep it to ourselves.
    The second bucket is the protection of the systems 
themselves. And this is one where we do have a very robust 
collaboration with industry, academia, the warfare centers, and 
the national labs. So the ability to protect the systems on a 
submarine, it is a bit of a different calculus than in a system 
that is continuously connected to the global information grid 
because submarines disconnect for a majority of their time at 
sea. That doesn't mean they are any less vulnerable. And it is 
important to remember that and understand that.
    So we have--what we have done recently is formed a team, 
and operating principally with Raytheon out in Manassas, done a 
cyber vulnerability assessment on the Virginia information 
systems. And the initial results look very good, but there are 
things that we have learned and that we will go fix.
    And finally, the third bucket is offensive cyber 
operations. And I can't talk about that at all except to say 
that our submarines have capabilities that you would be very 
interested in understanding and they are out there using it on 
a daily basis.
    Mr. Langevin. Thank you for that answer, Admiral. I have 
been out to the Raytheon facility and I have gotten that brief 
on the vulnerability testing. And I am glad that it is 
happening, among other things.
    But Admiral Jabaley, Admiral Richard, thank you both for 
your service. And I yield back.
    Mr. Forbes. I just have two closing questions to pose. One, 
Admiral Jabaley, we know that you have talked about the 
importance of the authority for continuous production. But if 
the Navy does not get that this year, can you tell us what is 
the practical impact, in terms of cost and schedule, if 
Congress doesn't provide that authority?
    Admiral Jabaley. The practical impact would be a loss of 
the opportunity of 1 year to start the continuous production 
and get that--really, really twofold. First, get the cost 
savings on the next group of missile tubes that will be 
procured. And then the second is, it would delay by 1 year the 
ability of that missile tube industrial base, we have several 
venders that produce those for us, it would delay the ability 
of us to begin that ramp-up to a stable production cadence. And 
in doing so, you would delay the ability to really start going 
down the learning curve, which as I am sure you know, the 
ability of a manufacturing production enterprise to incorporate 
lessons learned as you build subsequent articles and do it in 
less time at less expense. So it is really an opportunity lost. 
You know, would we still be able to build missile tubes? 
Obviously we would, but without the cost and schedule benefit 
of continuous production starting now.
    Mr. Forbes. And, Admiral Richard, we sometimes in this 
committee and sometimes with the Pentagon, sometimes in our 
discussions, we talk in terms that we understand, but we don't 
paint pictures for the public. And we sometimes gloss over 
things because we just tend to know them and just assume them.
    You talked earlier about the deficit we would have between 
the 48 submarines that we need and the 41 we will end up with, 
and then talked about the fact that, with everybody's 
realization of where the world is going now, that that number 
48 is probably going to increase. Paint the picture for us to 
give to our other policy makers. Don't just tell us that it 
doesn't meet the need we have or, you know, our combatant 
commanders--what is the risk to the United States of America 
and to our national defense if that gap is too large?
    Admiral Richard. Mr. Chairman, so first, it is important, I 
think, to look at, you know, what has changed. Right? I have 
alluded to a number of assumptions. So in 2006, we had a very 
different relationship with Russia. And the relationship we 
have now may require additional forces to set conditions that 
we would like to have. Right? If we don't have those forces, 
right, we will be challenged to go execute the plan that we 
want to go to. In 2006, we didn't have countries, more than 
one, operating ballistic missile submarines capable of 
attacking the homeland directly. We may require additional 
force to provide an adequate level of security against an issue 
like that. We have not seen a level of operations by other 
forces, other countries, like we are seeing now. It will 
constrain our ability to take up preferred courses of action in 
order to deter that type of operation. So it constrains the 
geographic reach that you have, it controls the amount of time 
that it takes in some cases to accomplish what you want to 
accomplish, and it may constrain the choices we have to make 
because we didn't have a full range of available options to 
give our leadership.
    Mr. Forbes. Okay. Mr. Courtney, I believe, had a couple of 
followup questions.
    Mr. Courtney. Right. Thank you, Mr. Chairman.
    Admiral Jabaley, in some other settings, you have talked 
about, again, that trough, and, you know, possible strategies 
to mitigate the trough. Obviously, we talked about the second 
sub in 2021. I mean, one other sort of, I think, normal 
reaction looking at the tile chart there is whether or not 
there is a way to maybe, again, push out the Los Angeles-class 
subs, the ones in gold there, to maybe push them out another 
year or two to help, again, with mitigating the depth. And is 
that something that you guys are looking at?
    Admiral Jabaley. Oh, absolutely, sir. When we made that 
change, which resulted in the trough, made the change of going 
to one-per-year Virginias, the CNO [Chief of Naval Operations] 
chartered a study that said: Okay. Go tell me how I can 
mitigate the risk that is incurred by the fact that I have now 
produced a trough where I am below 48 SSNs. And the study 
returned three principal actions.
    The first was to improve the build span of Virginia-class 
submarines. The USS Virginia was initially planned to deliver 
in 7 years, or 84 months. She was delivered in 86 months, which 
is pretty good. But we needed to get--one way to get more subs 
in the force is to turn them out earlier. So we have taken 2 
years off of that build span. Mississippi, which is our fastest 
delivery to date, delivered in 62 months. So that is a full 2 
years ahead of where we were on the Virginia, the lead ship of 
the class.
    The second way to mitigate that risk was exactly what you 
said, selected life extension of Los Angeles-class submarines. 
So as every submarine in the fleet nears its end of life, at 
about the 5- or 6-year point, we sit down and sharpen the 
pencils and extrapolate out the use of the fuel in the reactor 
core and start doing a material condition assessment on the 
status of the ship's hull itself, the tanks, the pressure hull, 
the superstructure in the sail, and make sure that we 
understand what would have to be done to that ship in order to 
extend its life.
    And we also look at the deployment schedule of that ship. 
Because there are some times where the final deployment as 
compared to the decommissioning date will leave about a year, a 
year and a half of time after it ends its final deployment. And 
so maybe you would only need to extend it 4 or 5 months of 
life, and then you could get another full 6-month deployment 
out of it before decommissioning. So we do all that comparison 
and then do kind of a cost-benefit analysis. First, is it safe 
to do so. Second, what maintenance would we have to insert into 
an availability 2 or 3 years before the end of life. And then 
we sign up to do it and extend the life.
    The third means of mitigating that risk was selected 
extension of deployments beyond the nominal 6 months to the 7- 
or 8-month length. And we have done that extensively throughout 
the submarine force. That has a counterproductive effect as 
well because on deployment, you are underway upwards of 85 
percent of the time so you are expending more fuel. So that has 
a direct impact on the ability to extend late in life on the 
second step, as it were.
    So those three steps have been going on for really almost 
the last 10 years, and they have produced a benefit. However, 
that benefit has primarily been felt in the presence side of 
the naval equation. You know, how many ships can I keep on 
deployment at any one time and satisfy the combatant 
commanders' peacetime mission requirements? What it cannot do 
is provide a projection benefit. You know, delivering 
submarines earlier has a slight one, but extended deployments 
and extension of life are very minimal impacts on the amount of 
submarines you can surge in the time of wartime. The only way 
you can do that is actually add ships to the shipbuilding plan. 
And that is another reason why that second ship in 2021 is so 
valuable.
    Mr. Courtney. Great. Well, again, thank you to both of you. 
I mean, your testimony has just been really very focused and 
clear. And that is, again, the kind of tools we will need over 
the next month or so with the defense bill. So, again, thank 
you for your testimony.
    I yield back.
    Mr. Forbes. Mr. Conaway.
    Mr. Conaway. Admiral, I think you may have just answered 
it. The chart is based on an optimum deployment schedule that 
is, you said, 6 months. So all of that assumes an optimal 
deployment schedule. Is that correct? Or does that already have 
built into it the extensions and everything else that you are 
talking about that we could buy more time on boats and that 
kind of thing?
    Admiral Jabaley. That chart is simply an inventory chart. 
The benefit you get out of every submarine on that chart is one 
place you can swing the needle. So, for instance----
    Mr. Conaway. So what would that--I guess, and maybe that is 
classified, I don't know, but what would that chart look like 
if, in fact, you said we would go to 7-month deployments?
    Admiral Jabaley. It would look exactly the same, because 
that chart does not portray--what you are talking about is a 
presence chart. So, you know, a requirement of, you know, if--
for instance, for the SSGNs, we have a 1.0 presence 
requirement. There has to be one SSGN on deployment in the LANT 
[Atlantic Ocean] and one in the PAC [Pacific Ocean] at all 
times. And that type of a chart would be modified by how long 
the deployment is and----
    Mr. Conaway. So this is just strictly the number of boats?
    Admiral Jabaley. This is how many submarines do we have in 
commission--how many attack submarines do we have in commission 
at any one time.
    Mr. Conaway. Okay. Thank you.
    I yield back.
    Mr. Forbes. Well, gentlemen, as everybody has thanked you 
for your service, we once again do that. Thank you so much for 
taking time to be with us on this afternoon. And we appreciate 
all the advice and counsel you continue to give to this 
subcommittee.
    And with that, we are adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 14, 2016

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 14, 2016

=======================================================================

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

  
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 14, 2016

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 14, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. HUNTER

    Admiral Richard. From a national perspective, the United States 
does need icebreakers to develop and maintain icebreaking capability 
and capacity to meet national interests and enhance safety and security 
in the changing Arctic region; therefore the Navy fully supports the 
U.S. Coast Guard's efforts to recapitalize its aging icebreaker fleet. 
The Navy, along with other agencies, worked with the Coast Guard and 
Department of Homeland Security in developing operational requirements 
for their icebreaker program. Additionally, we are supporting the Coast 
Guard's acquisition efforts.
    For the Navy specifically, icebreakers currently play a minor role 
in naval operations because Arctic operations are primarily conducted 
by Navy undersea and air assets, which can provide year-round presence 
without an icebreaker. With the exception of two Combat Logistics Force 
ship classes, the Navy's current surface combatants are not capable of 
operating in the extreme harsh environment of sea-ice conditions, even 
with the support of a Coast Guard icebreaker. Navy surface combatants 
conduct Arctic exercises only in open water conditions during the 
summer melt season. The Navy is studying the options and costs involved 
with ice-hardening surface ships, but there is currently no requirement 
for the significant investment and re-design of Navy ships to support 
this capability from surface assets because our undersea and air assets 
fulfill current Service and Combatant Command operational requirements 
in the Arctic.
    The U.S. Navy Arctic Roadmap 2014-2030 lays out a phased approach, 
balancing the demands of current requirements with investments in the 
development of future capabilities to keep pace with the changing 
environment. As part of this effort, the Navy will examine the role 
that icebreakers will play in partnering with the Navy and National 
assets to provide safe navigation, infrastructure, communications, and 
maritime domain awareness in the Arctic Region.   [See page 14.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 14, 2016

=======================================================================

      

                    QUESTION SUBMITTED BY MR. FORBES

    Mr. Forbes. As expressed in the FY2017 NDAA Report, there is 
concern that the requirements for the restarted Next Generation 
Countermeasures (NGCM) program do not reflect lessons learned and 
technology advancements made since the program was put on hold several 
years ago. What is the rationale for calling for a single 3" diameter 
device for both internal and external launch requirements?
    It is our understanding that existing external launchers can 
accommodate larger and significantly more advanced 6" next generation 
countermeasures that would also enable room for program growth. Does 
the Navy plan to re-evaluate and consider other approaches including 
development of more capable 6" external countermeasures along with 
incremental enhancements to existing 3" countermeasures?
    Admiral Richard. The Navy is developing a brief in response to the 
direction given in the FY17 NDAA Report. The brief will describe the 
Navy's plan to achieve the most cost effective and advanced torpedo 
defense capability for the submarine force and will be presented to the 
House Armed Services Committee no later than 30 September 2016.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Our national laboratories serve as excellent 
resources and work closely with the DOD on numerous projects. Can you 
tell us how you are utilizing these national laboratories, and what 
types of work they are assisting the submarine community with?
    Admiral Richard and Admiral Jabaley. The Navy has existing 
contracts with University Affiliated Research Centers (UARC) and 
Federally Funded Research and Development Centers (FFRDC) and our 
National Laboratories. The expertise of these organizations consists of 
sensor development, such as refining acoustic capabilities to 
improvements in how the U.S. Navy operates current systems around the 
globe.
    Undersea Warfare has unique and critical needs that require 
specialized knowledge, skills and experience that reside in the Naval 
Warfare Centers and UARCs. In particular, the Naval Warfare Centers 
provide a bridge between the research, development, test and evaluation 
(RDT&E) community and the U.S. Submarine Force. The Office of Naval 
Research (ONR) uses the Naval Warfare Centers and UARCs to directly 
support and, at times, lead a multitude of Science and Technology (S&T) 
programs directly contributing to the vitality and lethality of the 
U.S. Submarine Force. This work includes modeling and simulation, 
sensor development, algorithm development, test and evaluation, 
undersea sensor designs, active sonar automation and clutter rejection, 
component and system integration for technology transition into 
existing programs of record and the submarine force.
    An example of historic work with our National Laboratories includes 
the development of a new sorbent material for removing carbon dioxide 
from submarine atmospheres with the Pacific Northwest National 
Laboratory (PNNL). This novel material is being introduced in the 
atmospheric control equipment on the Ohio Replacement SSBN. A current 
effort with Sandia National Laboratory is the development of a battery 
monitoring system for lithium-ion batteries that will be fielded in the 
next generation of UUVs that will be launched from U.S. submarines.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. In 2004, NAVSEA initiated a research effort to 
address the need for a large-deck torpedo defense program. The focus of 
the R&D initiative was to optimize torpedo detection, classification, 
and anti-torpedo countermeasure performance in aft sector coverage. Is 
this still a valid requirement for the surface navy? If so, please 
describe any current and future efforts to address this requirement, 
including but not limited to specific programs, schedules, and funding.
    Admiral Richard. Yes, this is still a valid requirement for the 
surface navy. A Capability Development Document (CDD) for the Torpedo 
Warning System (TWS) was approved in March 2012 to address large-deck 
torpedo defense needs. The TWS coupled with the Countermeasure Anti-
Torpedo (CAT) make up the overall hard-kill torpedo defense system 
known as the Anti-Torpedo Torpedo Defense System (ATTDS). The CAT CDD 
is currently in Navy staffing. The ATTDS system is installed on five 
CVNs as part of a rapid fielding effort. The ATTDS program schedule and 
PB17 Surface Ship Torpedo Defense funding are provided below.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mrs. Walorski. In 2010, the CNO issued an Urgent Operational 
Need for the Surface Ship Torpedo Defense (SSTD) program to address 
torpedo threat vulnerabilities and a lack of defense of Navy's High 
Value Units (HVUs).
    Have the threat scenarios that caused CNO to accelerate deployment 
of the 4 Surface Ship Torpedo Defense systems in parallel with its 
continued program development diminished?
    Please describe your view of the current and foreseeable threats 
from torpedoes, the validity of any requirement to address these 
threats, and any current and future efforts to address this 
requirement, including but not limited to specific programs, schedules, 
and funding.
    Understanding the Navy accelerated this program to meet urgent 
operational requirements what types of improvements have been made in 
SSTD performance with this ongoing development and maturation approach?
    Admiral Richard. The threat scenarios and vulnerabilities are 
classified, but did not diminish and are comparable to those of 2010. 
The Navy has installed the Anti-Torpedo Torpedo Defense System (ATTDS) 
on five CVNs, providing improved torpedo defense capability. ATTDS is 
comprised of the Torpedo Warning System (TWS) and Countermeasure Anti 
Torpedo (CAT) programs. Recent ATTDS testing, completed in July 2016, 
resulted in a successful demonstration of salvo capability that, once 
validated, will be fielded on the ATTDS capable CVNs. Additional 
detailed analysis and reconstructions from the testing are scheduled 
for completion in September. It is our expectation that the detailed 
analysis will likely identify additional opportunities for further 
development and capability enhancement. The current ATTDS program 
schedule and PB17 Surface Ship Torpedo Defense funding are provided 
below. [See chart and table above.]
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. MOULTON
    Mr. Moulton. Many academic research institutions have long and 
successful records of engagement with both the U.S. Navy and separately 
with the leading companies in the Information Technology sector, 
especially in Silicon Valley and Cambridge. Given SECDEF Carter's 
articulation of the ``Third Offset Strategy'' and his recent overhaul 
of the Defense Innovation Unit-Experimental (DIUx), is there a unique 
and important role for these academic institutions in ensuring naval 
dominance?
    Admiral Richard and Admiral Jabaley. The Defense Innovation Unit 
(DIUx)--The Navy does have long and successful records of engaging with 
academic research institutions. Experimental initiatives began in 
August 2015 through DIUx with the intention of accelerating technology 
to our warfighters. It is an additional way to engage with technology 
developers and will help us reach industry research institutions that 
have not traditionally assisted the Navy in solving security 
challenges. We have engaged DIUx in areas where they can assist in 
identifying new technology that has the potential to quickly solve 
naval challenges.

                                  [all]
</pre></body></html>
